<html>
<title> - HOW AUTONOMOUS VEHICLES WILL SHAPE THE FUTURE OF SURFACE TRANSPORTATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
HOW AUTONOMOUS VEHICLES WILL SHAPE THE FUTURE OF SURFACE TRANSPORTATION

=======================================================================

                                (113-42)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
85-609                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5433243b14372127203c3138247a373b397a">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina

                                  (ii)

  
?

                  Subcommittee on Highways and Transit

                  THOMAS E. PETRI, Wisconsin, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
HOWARD COBLE, North Carolina         Columbia
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           MICHAEL E. CAPUANO, Massachusetts
SAM GRAVES, Missouri                 MICHAEL H. MICHAUD, Maine
SHELLEY MOORE CAPITO, West Virginia  GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            TIMOTHY J. WALZ, Minnesota
ERIC A. ``RICK'' CRAWFORD, Arkansas  STEVE COHEN, Tennessee
LOU BARLETTA, Pennsylvania           ALBIO SIRES, New Jersey
BLAKE FARENTHOLD, Texas              DONNA F. EDWARDS, Maryland
LARRY BUCSHON, Indiana               JANICE HAHN, California
BOB GIBBS, Ohio                      RICHARD M. NOLAN, Minnesota
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
STEVE SOUTHERLAND, II, Florida       DINA TITUS, Nevada
REID J. RIBBLE, Wisconsin, Vice      SEAN PATRICK MALONEY, New York
Chair                                ELIZABETH H. ESTY, Connecticut
STEVE DAINES, Montana                LOIS FRANKEL, Florida
TOM RICE, South Carolina             CHERI BUSTOS, Illinois
MARKWAYNE MULLIN, Oklahoma           NICK J. RAHALL, II, West Virginia
ROGER WILLIAMS, Texas                  (Ex Officio)
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hon. David L. Strickland, Administrator, National Highway Traffic 
  Safety Administration..........................................     5
Kirk Steudle, Director, Michigan Department of Transportation, on 
  behalf of the American Association of State Highway and 
  Transportation Officials.......................................     5
Michael J. Robinson, Vice President, Sustainability and Global 
  Regulatory Affairs, General Motors.............................     5
Andrew Christensen, Senior Manager, Technology Planning and 
  Strategic Technology Communication, Nissan Technical Center 
  North America..................................................     5
Raj Rajkumar, Ph.D., Professor, Electrical and Computer 
  Engineering Department, Carnegie Mellon University.............     5
Joshua L. Schank, Ph.D., President and CEO, Eno Center for 
  Transportation.................................................     5

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Steve Cohen, of Tennessee...................................    37

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. David L. Strickland, prepared statement.....................    38
Kirk Steudle:

    Prepared statement...........................................    47
    Answers to questions for the record from Hon. Don Young, a 
      Representative in Congress from the State of Alaska........    56
Michael J. Robinson:

    Prepared statement...........................................    57
    Answers to questions for the record from the following 
      Representatives:

        Hon. Don Young, of Alaska................................    61
        Hon. Howard Coble, of North Carolina.....................    61
Andrew Christensen:

    Prepared statement...........................................    62
    Answers to questions for the record from the following 
      Representatives:

        Hon. Don Young, of Alaska................................    65
        Hon. John J. Duncan, Jr., of Tennessee...................    66
Raj Rajkumar, Ph.D.:

    Prepared statement...........................................    67
    Answers to questions for the record from Hon. Don Young, a 
      Representative in Congress from the State of Alaska........    72
Joshua L. Schank, Ph.D.:

    Prepared statement...........................................    73
    Answers to questions for the record from Hon. Don Young, a 
      Representative in Congress from the State of Alaska........    76

                       SUBMISSION FOR THE RECORD

Consumer Electronics Association, written statement..............    78

[GRAPHIC] [TIFF OMITTED] T5609.001

[GRAPHIC] [TIFF OMITTED] T5609.002

[GRAPHIC] [TIFF OMITTED] T5609.003

[GRAPHIC] [TIFF OMITTED] T5609.004



HOW AUTONOMOUS VEHICLES WILL SHAPE THE FUTURE OF SURFACE TRANSPORTATION

                              ----------                              


                       TUESDAY, NOVEMBER 19, 2013

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
Room 2167 Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The subcommittee will come to order.
    Today's hearing will focus on how autonomous vehicles will 
shape the future of surface transportation. These vehicles have 
the potential to offer incredible safety and mobility benefits 
to drivers and fundamentally transform transportation 
infrastructure as we know it.
    It is important to understand exactly what autonomous 
vehicles are. Some vehicles currently available to consumers 
have computer technology that performs some driving functions, 
such as automatic parallel parking and adaptive cruise control. 
These features are considered a basic level of autonomy, but 
the purpose of today's hearing is to discuss the impacts of 
more advanced levels of autonomy that could be available to the 
public in the next 10 to 20 years.
    More advanced autonomous vehicles are capable of alerting 
drivers to danger and controlling of vehicles' brakes and 
steering during certain situations where the driver reacts too 
slowly. These vehicles will blend human control with autonomous 
systems to make for a more convenient and a safer driving 
experience.
    The most advanced level of autonomous vehicle is capable of 
navigating roads with limited or no action from the driver by 
utilizing a variety of optical sensors, radar, and computer 
algorithms. The sensors deliver environmental data of the road 
and surrounding vehicles into the computer algorithm which then 
determines the appropriate driving maneuver.
    These vehicles do not suffer from intoxicated or fatigued 
driving, and are able to react to dangerous driving situations 
faster than can a human being. Many auto manufacturers have 
developed prototypes that one day could be offered to 
consumers.
    Carnegie Mellon University has developed and tested one 
such vehicle at the University Transportation Center, and we 
will hear from the director of their program today.
    Autonomous vehicles could significantly reduce traffic 
fatalities and crashes by reducing or eliminating driver error, 
which is a contributing factor to over 90 percent of all 
crashes. These crashes cost the United States economy over $200 
billion per year in medical, property and productivity losses.
    Crash reductions would also have the added benefit of 
reducing congestion since a high percentage of congestion is 
due to vehicle crashes. While safety is the most important 
benefit, autonomous vehicles could reduce congestion and 
improve fuel economy through better utilization of existing 
highway capacity and more efficient operation of the vehicle's 
acceleration and braking control.
    Seniors and persons with disabilities could be afforded 
greater mobility options that are not available to them today. 
Some researchers think autonomous vehicles could be offered to 
consumers on a service-based contract, which would provide a 
vehicle whenever the consumer requests one, but these benefits 
can only be realized if Federal and State authorities carefully 
prepare for their arrival and adopt policies that help 
autonomous vehicles assimilate into the transportation network.
    States have just started to address some of these 
challenges through laws allowing autonomous vehicles to operate 
on public roads and their licensing procedures. The U.S. 
Department of Transportation is conducting a pilot program on 
connected vehicle technology which could one day play a role in 
the autonomous vehicle system by communicating safety 
information to other vehicles on the road.
    Liability and cybersecurity concerns are significant 
barriers to autonomous vehicle adoption. Who is at fault in a 
crash between a vehicle operated by a human and one operated by 
a computer system?
    Are proper encryption technologies in place that protects 
autonomous vehicles from unwanted intrusion?
    All of these concerns must be addressed before benefits 
from autonomous vehicles can be realized. Vehicles and 
infrastructure that they utilize are becoming increasingly 
integrated with computer technology, which has the potential to 
revolutionize highway safety and mobility in our country. In 
order to see these benefits come to fruition, Federal and State 
officials should begin planning for the benefits and the 
challenges that autonomous vehicles will bring to the future of 
our Nation's surface transportation system.
    So I hope today's hearing will provide our committee 
members with insight into this important issue, and before I 
conclude my remarks I would like to commend Staff Director Jim 
Tymon for his 11 years of service and dedication to our 
committee. Jim is leaving the committee to join the American 
Association of State Highway and Transportation Officials as 
their director of management and program finance, and he has 
been a key staffer on the last two surface transportation 
authorizations and sacrificed countless hours away from his 
beautiful family to improve our Nation's transportation system.
    So on behalf of the committee, I wish you the best luck in 
your future endeavors, and thank you for your service over the 
many years to this committee.
    [Applause.]
    Mr. Petri. I look forward to hearing our witnesses, but 
before that I turn to my ranking member, Eleanor Holmes Norton, 
for any opening statement she might wish to make.
    Ms. Norton. Well, thank you, Mr. Chairman, and I certainly 
want to thank you for calling this hearing on autonomous 
vehicles. This is my first hearing as ranking member. I am 
honored to serve with you and look forward to working closely 
with you and with the other members of the subcommittee on the 
opportunities and the challenge facing the Nation's 
infrastructure programs.
    I particularly look forward to today's testimony. I want to 
learn how manufacturers and those who are involved in the 
research are working to develop and test autonomous and 
connected vehicle technology, and perhaps we will speak a bit 
about the role of the States and the localities on the Federal 
Government in regulation for the safety of all involved.
    I expect that this hearing will spur a robust discussion, 
perhaps the kind of discussion we are not yet having in the 
United States about the policy and economic and the legal 
challenges and the opportunities presented as we embark into 
increasing levels of automation in vehicles just as we have in 
other forms of transportation.
    Just last week I had the opportunity to ride in an electric 
car, but unlike Chairman Petri, who has ridden in a connected 
vehicle, and Chairman Shuster whose ride in a driverless car 
has been widely reported, I have yet to have a car drive me. I 
am looking forward to that opportunity.
    Technology, of course, is already common in vehicles today. 
So we should not be surprised that driverless vehicles are 
already envisioned. After all, we are living with driverless 
vehicles. The Metro here used by Members, staff, and Federal 
employees has long used automatically driven cars, and 
automatic pilots are common in both planes and on rail.
    It is worth noting, however, that after a serious Metro 
crash here in 2009 that killed nine residents, Metro has been 
riding manually, and that is the case, although that accident 
was not directly attributed to the driverless nature of the 
trains. Manual deployment now is used as a safety precaution.
    The technology for driverless cars, of course, must cope 
with the risks and the dangers and the congestion that are far 
more complicated on the road than in the air or on rail. 
Perhaps, however, and this is how I would like to envision the 
technology that will lead to driverless cars, perhaps the 
technology applied to our transportation infrastructure on the 
ground has the power to actually reduce our accidents and 
risks, and the chairman has spoken of some of them. I will not 
reiterate them.
    But mass deployment of technology is already ushering in 
dramatic gains in safety by significantly reducing vehicle 
crashes and saving lives. I have a strong interest in 
facilitating the use of technology-based solutions in a number 
of ways to address our surface transportation challenges.
    This hearing, therefore, is not futuristic. I believe that 
understanding and preparing for the future of our surface 
transportation system now is important so that technological 
advances can turn into benefits for highway users as they 
become commercially available.
    There are, of course, even more immediate issues this 
subcommittee must resolve in the near term. Our subcommittee 
must grapple with the looming insolvency of the Highway Trust 
Fund at the end of fiscal year 2014. I hope that the 
subcommittee seizes every opportunity to find a solution to our 
Nation's surface transportation funding woes, about which we 
hear so much daily. We can ill afford to wait until next year 
to solve that problem.
    I know you share my concerns, Chairman Petri, and I look 
forward to working with you to develop sensible solutions to 
keep our Nation moving forward as we begin to think through 
reauthorization of a new surface transportation bill. Then 
perhaps we will really be ready to move forward and utilize the 
new technology that we will hear about at today's hearing.
    I want to thank today's witnesses for joining us in advance 
and to thank you for your testimony, and I wanted to apologize, 
Mr. Chairman, to you and to our witnesses that a subcommittee 
hearing in another subcommittee of this committee is 
considering revitalization of a site near the Wall in my 
district. So I will be traveling by foot between this very 
important hearing and that hearing.
    Thank you very much, Mr. Chairman.
    Mr. Petri. Thank you. I am on that subcommittee and am 
playing hooky, but I certainly understand why you would want to 
be there.
    I would like to welcome our witnesses and to ask unanimous 
consent that their full statements be included in the record.
    Without objection, so ordered.
    The panel consists of the Honorable David L. Strickland, 
who is the Administrator, National Highway Traffic Safety 
Administration; Mr. Kirk Steudle, director of the Michigan 
Department of Transportation, on behalf of the American 
Association of State Highway and Transportation Officials; 
Michael J. Robinson, vice president, Sustainability and Global 
Regulatory Affairs for the General Motors Corporation; Mr. 
Andrew Christensen, senior manager for Technology Planning, 
Nissan Technical Center North America; Dr. Raj Rajkumar, who is 
a professor, Electrical and Computer Engineering Department of 
Carnegie Mellon University; and Dr. Joshua L. Schank, president 
and CEO of the Eno Center for Transportation.
    Gentlemen, thank you very much for attending this hearing 
and for the effort that you and your staff put into the 
prepared statements which will be made a part of the record, 
and I would invite you to summarize them in approximately 5 
minutes and give the committee a chance to ask questions as 
well.
    We will begin with Mr. Strickland.

TESTIMONY OF HON. DAVID L. STRICKLAND, ADMINISTRATOR, NATIONAL 
HIGHWAY TRAFFIC SAFETY ADMINISTRATION; KIRK STEUDLE, DIRECTOR, 
    MICHIGAN DEPARTMENT OF TRANSPORTATION, ON BEHALF OF THE 
   AMERICAN ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION 
OFFICIALS; MICHAEL J. ROBINSON, VICE PRESIDENT, SUSTAINABILITY 
     AND GLOBAL REGULATORY AFFAIRS, GENERAL MOTORS; ANDREW 
CHRISTENSEN, SENIOR MANAGER, TECHNOLOGY PLANNING AND STRATEGIC 
    TECHNOLOGY COMMUNICATION, NISSAN TECHNICAL CENTER NORTH 
    AMERICA; RAJ RAJKUMAR, PH.D., PROFESSOR, ELECTRICAL AND 
 COMPUTER ENGINEERING DEPARTMENT, CARNEGIE MELLON UNIVERSITY; 
AND JOSHUA L. SCHANK, PH.D., PRESIDENT AND CEO, ENO CENTER FOR 
                         TRANSPORTATION

    Mr. Strickland. Thank you, Mr. Chairman, and good morning. 
I also want to thank and recognize Ranking Member Holmes Norton 
and members of the committee for this opportunity to testify on 
automated vehicles and the implication for the future of 
surface transportation.
    The future of the automobile is extremely bright. 
Increasingly a car's capabilities are determined more by its 
electronics than by its mechanics. This is bringing countless 
innovations and improve driver comfort, provide useful 
information and entertainment, and most importantly, advanced 
safety.
    According to our estimates, there were 33,561 people that 
lost their lives on America's roadways in 2012. In addition to 
the devastation that their crashes caused to these families, 
the economic cost to society reached into the hundreds of 
billions of dollars. Automated vehicles can potentially help 
reduce these numbers significantly.
    Traditionally, we have improved survivability by advancing 
the vehicle's crash worthiness along with a number of people 
that are sitting with me at this table and other manufacturers 
across the globe. With those technologies, such as seat belts 
and air bags, occupants are more likely to survive a crash than 
they were more than 20 or 30 years ago. Today there are new, 
exciting prospects for advancing safety through new crash 
avoidance technologies that could prevent a crash from 
occurring in the first place.
    To that end, I am pleased to highlight the Significant and 
Seamless initiative that the National Highway Traffic Safety 
Administration recently announced. The Significant and Seamless 
initiative addresses the areas in highway safety where industry 
can fast track existing safety technology.
    One major component is forward collision avoidance and 
mitigation, a sensor-based vehicle technology that can detect 
the imminent crash and alert the driver to take corrective 
action and automatically apply the brakes.
    We have greatly accelerated our efforts to initiate and 
complete research of the Connected Vehicles Program. V2V, which 
depends on the 5 gigahertz spectrum, is designed to give 
drivers situational awareness to improve safe decisionmaking on 
the road.
    Chairman Petri, I would like to thank you for taking time 
to visit our demonstration at RFK Stadium earlier this year.
    I think the Connected Vehicles Program is a critical 
evolution of crash avoidance technology.
    Recently traditional and nontraditional auto companies have 
unveiled research projects to develop self-driving cars. 
Unsurprisingly, people find this fascinating. With all the 
discussion surrounding automated driving, we find it helpful to 
think of these emerging technologies as part of a continuing of 
vehicle control.
    To that end, NHTSA has issued a preliminary statement of 
policy concerning automated vehicles where we define levels of 
automation starting from your basic 1957 Chevy at level zero 
with no automation at all, all the way to full automation 
requires no input or control from the driver.
    Automated driving is an exciting frontier for the industry, 
and we have identified three key areas for preliminary 
research: human factors and human-machine interface; initial 
system performance requirements; and electronic control system 
safety. Our research will inform agency policy decisions and 
assist in developing an overall set of requirements and 
standards for automated vehicles.
    Several States, including the great State of Michigan, have 
enacted legislation expressly authorizing the operation of 
autonomous vehicles within their borders under certain 
conditions. Generally, these laws seem to contemplate partially 
self-driving or fully autonomous operation.
    We offer recommendations to the States considering 
legislation or regulations governing licensing, testing and 
operation of self-driving vehicles on public roads in order to 
encourage the safe development of automated vehicles. In 
general, we believe that States are well suited to address 
issues such as licensing, driver training, and conditions for 
operation related to the specific types of vehicles.
    We do not at this time recommend that State permit 
operation of self-driving vehicles for purposes other than 
testing. Any greater State regulation at this time may stifle 
innovation needed to improve safety, reliability, and the 
collection of data.
    The promise of advanced vehicles is very exciting. While 
certainly there is a risk with any emerging technology, I 
firmly believe that when the risk is properly identified, 
understood and mitigated, we can help minimize it and reap the 
potential benefits.
    One additional note, Mr. Chairman, as a point of personal 
privilege. I just also wanted to acknowledge Jim Tymon's 
fantastic service. I had the opportunity to work with him on 
SAFETEA-LU, oh, so many years ago as I was working on the 
Senate side, on Senate Commerce Committee, and Jim was a 
fantastic colleague, occasional adversary, but overall a great 
friend, and one of the best policy minds in Washington, DC, and 
I just want to thank you for all of his years of friendship and 
expertise, and God bless you, and have all of the best 
opportunities at AASHTO.
    Thank you very much, Mr. Chairman.
    Mr. Petri. Thank you.
    He is moving on up to AASHTO.
    [Laughter.]
    Mr. Petri. Mr. Steudle.
    Mr. Steudle. Good morning, Chairman Petri and distinguished 
members of the subcommittee. Thank you for the opportunity, on 
behalf of AASHTO and the State departments of transportation, 
to share our views on how autonomous vehicles will shape the 
future of transportation.
    I have three points for you. First, the ultimate goal is 
the safest and most efficient transportation system imaginable, 
and it may be possible to achieve this goal with accident free 
vehicles, vehicles that can drive themselves, and vehicles, 
drivers, and transportation infrastructure that safety, 
securely and reliably share real time information.
    Second, widespread acceptance and deployment of driverless 
vehicles and of interconnected vehicles and infrastructure will 
be challenging and evolutionary.
    Third, there are actions that you can take today to move 
forward with these technological advances and effectively 
prepare us for the future.
    Now, allow me to elaborate on these three points. First, 
the big picture. In reality, autonomous and interconnected 
vehicles, drivers, and infrastructure are a means to achieving 
our society's larger goals of an accident free transportation 
system.
    Mr. Chairman, as you noted in the beginning, the safety 
benefits are huge. They are enormous. You also noted that the 
driver was at error in most crashes. If we can take the driver 
out of the equation, we have the potential to reduce the 
severity of crashes and crash rates significantly.
    Some of the technology is already available, such as 
traffic signal overrides for emergency vehicles and buses, and 
automatic braking that reacts more quickly than humans can. 
Autonomous vehicles could significantly improve the mobility 
for those who are permanently or temporarily disabled and our 
aging population.
    Vehicles that can communicate in real time with other 
vehicles, drivers and infrastructure can enable vehicles to 
drive closer together, allowing the transport system to operate 
more efficiently. Ultimately the deployment of connected and 
autonomous vehicles could fundamentally change the way we 
design and build roads and bridges.
    For example, with crashless cars the need for a 12-foot-
wide lane, guard rails, rumble strips, wide shoulders and even 
stop signs could decrease and be replaced with the need for 
sensors and next-generation traffic signals.
    But achieving this vision will not happen overnight, which 
leads me to my second point. Additional research, development, 
testing and evolution will be needed before there will be 
widespread acceptance and deployment. This will take many 
years.
    This evolution will include the deployment of many enabling 
technologies ranging from sensor-based information to wireless 
communications between vehicles and vehicles with the 
infrastructure and even technologies that we have not thought 
of yet. During this evolutionary period, we do not want to 
limit our options or impede further significant advances in 
technology. We need to be very cautious.
    However, we have substantial deployment challenges that 
must be addressed, and here are a few things to consider. The 
hardware investment needed to equip vehicles and to retrofit 
roadways with new technologies and materials will add to the 
substantial roadway preservation deficit we already face.
    Privacy concerns associated with data sharing could prove 
to be a significant hurdle in the development. Electronic 
security risks, as you noted earlier, such as viruses and 
hacking could threaten widespread acceptance.
    Our fleet turnover rate of vehicles is currently at about 
20 years, meaning you introduce new technology today and it 
will take 20 years for the full fleet to be completely 
converted.
    Connected vehicle technology must have a secure and fast 
communications network to work, faster than is currently 
available with traditional cellular communications. The FCC has 
reserved 5.9 gigahertz bandwidth for this use. They are now 
considering sharing this use with other wireless communications 
providers, and we think that that needs to be done very 
cautiously.
    And lastly, there will be a range of operational challenges 
during this transition period when both autonomous and 
nonautonomous vehicles will be sharing the roadways.
    Finally, we have recommendations to advance autonomous 
vehicle technology today. First of all, encourage NHTSA to make 
its decision this year on requiring vehicle technology for all 
new passenger vehicles.
    Second, protect the 5.9 gigahertz bandwidth for the 
connected vehicle program.
    Third, fund research to more fully understand the breadth 
of possible operating scenarios and implications that 
autonomous and connected vehicle technology will have.
    And, fourth, support the continuing collaboration between 
the U.S. Department of Transportation, the State departments of 
transportation, and the global automakers and suppliers. This 
collaboration will be essential for the successful deployment 
of autonomous vehicles into the future.
    Finally, Mr. Chairman, I would like to commend the 
committee for taking on this issue and for your leadership to 
make sure that our Nation's transportation system continues to 
be the envy of the world. Thank you.
    Mr. Petri. Thank you.
    Mr. Robinson.
    Mr. Robinson. Good morning, Mr. Chairman and members of the 
committee. Thank you for the opportunity to participate this 
morning in this very important hearing.
    The idea or autonomous driving has captured our collective 
attention and imagination, but in reality many of the future 
building blocks upon which it rests are already here. The role 
technology is already playing to assist the drivers or our 
vehicles in managing the conditions and circumstances they 
encounter on the highways today is providing the foundation for 
future breakthroughs.
    It should not be surprising that GM is investing in 
technologies that ultimately will provide even greater levels 
of driver assistance and vehicle management, and importantly, 
we are working on systems that do not require dramatic upgrades 
or modifications to the national highway infrastructure 
network.
    To the greatest degree possible, our goal is to keep the 
systems we are talking about contained within the vehicles and 
between the vehicles. However, we do have one low-tech need: 
clearly marked lanes and shoulders. This will enhance the 
capabilities of these technologies that we are already using to 
sense the road, such as radar, ultrasonic sensors and cameras, 
along with, of course, GPS location capabilities.
    Over the past 2 years, the media has devoted much time and 
attention to the idea of a self-driving car. For the most part, 
as the name implies, people assume that an autonomous vehicle 
will take you to your destination without any personal 
involvement after simply issuing a command, without any 
oversight by the driver. It is easy to understand why this 
captures our imagination.
    However, these types of driverless systems are a 
significant distance into the future. Realistically and for the 
foreseeable future, the driver will still need to be engaged 
and in control. Simply put, this is because driving is a very 
complicated business, and it will take some time for the 
computer driven systems to be capable of managing an reacting 
to all of the situations and road conditions that drivers do 
encounter.
    That said, we are quickly forging ahead in a very 
thoughtful way to enhance safety by reducing driver workload. 
We consider these systems to be like having an extra set of 
eyes available for the driver. For example, today GM offers 
adaptive cruise control, ACC, on variety of our vehicles, an 
example of the building blocks that I just mentioned that will 
move us to the more automated systems of the future.
    ACC is an intelligent form of cruise control that slows 
down and speeds up a vehicle automatically at pace with the 
traffic ahead. Like normal cruise control, the driver sets the 
speed, but also sets a distance gap setting. ACC is typically 
paired with a collision warning system that alerts the driver 
of a potential collision ahead and may also be equipped with a 
system that begins braking before the driver might have time to 
react. This system is already on various Cadillac vehicles and 
our new Chevrolet Impala.
    GM has talked publicly about taking this very type of 
system to the next level, for example, adding the ability of 
the vehicle to maintain lane control. We call this more 
advanced system Super Cruise and expect it will provide even 
greater driver assistance, including hands free capability on 
certain freeway drives.
    This system, too, though will require a driver's 
supervision. We believe this type of technology can 
realistically be brought to market before this decade ends.
    Beyond that, the definition of what constitutes autonomous 
and automated vehicles and automated technology is being 
discussed and can be interpreted in various ways. The document 
that David Strickland referred to, ``Preliminary Statement of 
Policy Concerning Automated Vehicles,'' really starts to frame 
that discussion and will provide a good basis for our 
collaborative work that needs to be done among the various 
players down the road.
    At the same time a number of States are also becoming 
involved in defining, guiding or even regulating autonomous 
technology implementation. We think this is a bit premature, 
but to the extent States do decide they need to be involved, 
quite frankly, the approach the State of Michigan has taken to 
carefully make sure current systems and the building blocks I 
mentioned are not in peril as we test these future vehicles.
    In addition to the obvious highway safety benefits of more 
automated vehicles, wide implementation of these systems could 
offer potentially significant benefits for improved fuel 
economy and CO2 reduction. Also eliminating or virtually 
eliminating crashes could have profound impact on how we 
engineer vehicles for future occupant safety and crash 
worthiness. It will give us the opportunity to take a fresh 
look at how we design body structures that manage crash energy. 
Fewer crashes means easier engineering.
    Consequently, there may be opportunities to further reduce 
vehicle mass.
    Finally, the ability to sense other cars, traffic 
congestion and even pedestrians would allow for smoother 
traffic flows, reduced noise and less pollution. Everybody wins 
in that scenario.
    So you may ask how can we get this technology to the road 
faster. What can you do as a committee. We have three 
suggestions. Let the market work. Let manufacturers like GM do 
what we do best and compete for customers with features that 
add real value to the drive today and to the future generations 
of vehicles tomorrow.
    Two, support a Federal approach to addressing these issues. 
We need a regular standard that can be adopted across all 50 
States, not a patchwork of 50 different standards.
    And, three, I would suggest respectfully that we need to 
provide an environment that promotes the development and 
implementation of these technologies here in the United States 
rather than in other countries, for example, reasonable 
protection for automakers and dealers from frivolous litigation 
for systems that meet and surpass whatever performance 
standards are established by the Government.
    I have run out of time, Mr. Chairman, but in conclusion, I 
want to let you know that we are committed to these 
technologies. We are moving full steam ahead and look forward 
to your questions.
    Mr. Petri. Thank you.
    Mr. Christensen.
    Mr. Christensen. Thank you, Chairman Petri and members of 
the committee.
    I am the senior manager of Technology Planning at Nissan's 
Technical Center located in Farmington Hills, Michigan. Nissan 
has established ambitious goals for the development of 
autonomous vehicles. So I am particularly honored to testify 
about how autonomous vehicles will shape the future of 
transportation.
    Carlos Ghosn, the CEO of the Renault-Nissan Alliance, 
recently announced the goal for Nissan to have an affordable 
autonomous drive vehicle ready by 2020. This timeframe is 
challenging, but we believe achievable.
    Autonomous drive technologies can be classified by the 
level of automation ranging from emerging active safety 
technologies, such as forward emergency braking, to more 
autonomous vehicles and ultimately driverless cars. While many 
advantages are often cited for each level of autonomous 
technology, the potential safety benefit is the most important 
reason to pursue its development.
    It is estimated that human error is involved in over 90 
percent of the more than 6 million accidents occurring annually 
in the United States. Typically those crashes involve some 
level of driver inattention. We believe that autonomous driving 
technology has the potential to successfully address these 
types of situations resulting in these accidents.
    Nissan's work on autonomous drive is a continuation of over 
10 years of crash avoidance technology development inspired by 
our safety shield concept. This proactive development 
philosophy has enabled Nissan to introduce technologies 
designed to help drivers avoid a variety of risks from the 
front, side, and rear of the vehicle, including the world's 
first backup collision intervention and predictive forward 
collision warning systems.
    It is the exact safety systems that will form the 
foundation of our autonomous drive technologies. Nissan's 
efforts are focused on technology that operates within the 
available roadway infrastructure. In the future additional 
benefits could be achieved if autonomous technology is fully 
integrated with the transportation infrastructure, including 
traffic control and road systems.
    While some of the technologies that will act as the 
foundation for autonomous drive are already being introduced 
and we believe in their potential, the development of 
autonomous technology remains a challenging task which will 
require careful planning and resource allocation.
    From an engineering standpoint, Nissan is already investing 
in the future of autonomous driving. In the United States, 
Nissan has teams working at our Technical Center in Michigan, 
and we have also opened a research facility in Silicon Valley 
to integrate the rich IT knowledge available there.
    We are also creating a dedicated autonomous vehicle proving 
ground. Although Nissan is developing most of this technology 
in house, we will also partner with others as needed. For 
example, we will continue to collaborate with top level 
universities, such as Oxford, Stanford, MIT and Carnegie 
Mellon.
    However, a successful introduction of autonomous drive will 
require more than careful engineering development. Autonomous 
driving may significantly alter the way society views driving, 
making social acceptability an important factor that should be 
carefully managed in parallel with the technical development. 
An ongoing and open dialogue among stakeholders is critical to 
help address the social framework needed to support autonomous 
technology deployment.
    The necessary technical achievements and the maturing of 
social acceptance will be fostered gradually, step by step. 
Nissan conducted an autonomous driving demonstration at an 
event in California this summer and we are ready to conduct 
field operational tests in the United States and in other 
countries.
    Nissan has also received the first license plate for an 
autonomous vehicle in Japan, authorizing us to test vehicles on 
public roads.
    These demonstration events and field tests are important 
not only from a technology development perspective, but also to 
educate the public and help us understand social opinion. With 
the potential societal benefit that can come with autonomous 
driving, Nissan believes the United States can take a leading 
role in helping to promote safe and dynamic development of the 
technology.
    Such leadership may include the consideration of 
appropriate legislative action, funding for research and 
development, and studying the need for investment in wireless 
communication infrastructure to support future advancements.
    We hope that road traffic safety in the United States will 
be dramatically improved with the advent of autonomous driving, 
and we believe Nissan's commitment will contribute 
significantly to its progress.
    We look forward to working with Members of Congress as we 
move toward this challenging goal.
    Mr. Chairman and the committee, I thank you for your time 
and interest in this important issue.
    Mr. Petri. Thank you.
    Dr. Raj Rajkumar.
    Dr. Rajkumar. Thank you, Chairman Petri and Ranking Member 
Norton, for convening this important hearing.
    I am honored to share my views as a researcher working with 
my colleagues at Carnegie Mellon University and the University 
of Pennsylvania at our U.S. DOT National University 
Transportation Center for Safety which is dedicated to 
developing technologies that target the holy grail of zero 
traffic fatalities.
    Our work is also supported by the National Science 
Foundation through the Cyber-Physical Systems Program and by 
General Motors.
    There is tremendous excitement building around autonomous 
vehicle capability in industry, academia and among the public. 
Today, we can envision a future of driving that is dramatically 
safer, more energy efficient, more sustainable, more productive 
and less congested, all without abrogating the role of the 
automobile in American life.
    Autonomous driving is a prospective and realistic solution 
to the challenges of traffic fatalities, congestion and loss of 
mobility. Indeed, as Chairman Shuster recently showed by his 
willingness to experience a seamless driverless vehicle first-
hand on a 33-mile autonomous ride on September 4 in Pittsburgh, 
autonomous vehicles have already been shown to be feasible in 
real-world street and highway traffic conditions.
    Autonomous driving is an emerging and welcome result of the 
rich foundation of Federal investments in basic research and 
engineering, computer science and robotics. The seminal turning 
point in the pursuit of a grand vision of autonomous driving 
was the Urban Grand Challenge sponsored by the Defense Advanced 
Research Projects Agency, DARPA. This 2007 competition, won by 
our team from Carnegie Mellon University, clearly demonstrated 
the feasibility of autonomous driving in an urban, though 
restricted, setting.
    Continued basic research is required to address the 
challenges presented by bad weather, poor road conditions, 
different lighting conditions and to ensure safe recovery from 
any failures of subsystems.
    Fundamental advances are needed to successfully verify and 
validate the correct and secure operations of these cyber-
physical systems. We at Carnegie Mellon University are 
addressing these core scientific challenges.
    One pivotal research thrust which will accelerate the 
safety and reliability of autonomous driving capabilities 
involves connected vehicle technologies. The accurate and 
reliable operation of autonomous vehicles will be significantly 
improved with the seamless integration of automation and 
connectivity.
    Carnegie Mellon has developed a 1.8-mile test-bed with 11 
instrumented traffic lights near Pittsburgh. A much larger 
test-bed will be developed next year.
    We are also exploring communication systems for use by 
bicyclists and pedestrians. Similarly, the big data 
opportunities in this domain will yield innovations in mobility 
analytics to identify and resolve traffic bottlenecks, to help 
emergency responders and to better integrate different modes of 
transportation.
    The following are some considerations for policymakers. 
First, we should exercise caution in rushing to deploy 
technologies before ensuring that they can be fully trusted. 
For the foreseeable future, a human must continue to be in the 
driver's seat even if the vehicle is capable of driving itself.
    Secondly, we must recognize that the pace of advances and 
adoption will depend on the level of support for continued 
research. Advances will still require serious R&D investments 
in both basic research and applied test-beds linking industry, 
universities, companies and communities.
    Thirdly, we must be sure that policy and regulatory 
innovations evolve along with this technology.
    Fourthly, we must ensure that adequate privacy and cyber-
physical security safeguards are developed and integrated.
    Finally, these challenges should not deter policymakers 
from pursuing the goal of autonomous vehicles because this 
technology holds tremendous promise to reduce highway spending 
in the 2030-2040 timeframe.
    In closing, I thank the members of this committee for the 
opportunity to speak to you on an area of research that can 
profoundly transform our economy, our highways, and our lives. 
These investments will keep our Nation as the global leader in 
intelligent transportation systems.
    Thank you.
    Mr. Petri. Thank you.
    Dr. Schank.
    Dr. Schank. Good morning and thank you for having me here 
today. Thank you, Chairman Petri and members of the committee. 
I appreciate the opportunity to talk to you about autonomous 
vehicles.
    I am Joshua Schank. I am the president and CEO of the Eno 
Center for Transportation. We are a nonpartisan, objective, 
neutral transportation policy think tank based here in 
Washington, DC, and we were founded by William P. Eno 92 years 
ago. Mr. Eno was stuck in a traffic jam at the age of 9 in a 
horse and buggy in New York City and devoted the rest of his 
life to dealing with traffic and safety issues and founded the 
Eno Center for Transportation. So we have been working on this 
for a long time.
    This paper, ``Preparing a Nation for Autonomous Vehicles, 
Opportunities, Barriers and Policy Recommendations,'' was 
authored by Eno Fellow Dan Fagnant and his advisor Kara 
Kockelman at the University of Texas, and the paper sought to 
look at the barriers that exist to integrating autonomous 
vehicles and to understand how Federal policy can smooth the 
transition.
    First we looked at some of the big benefits that could come 
from autonomous vehicle introduction. These include safety, 
reduce congestion, fuel savings, and greater mobility for those 
who cannot drive themselves. We found that over 40 percent of 
fatal automotive crashes involve some kind of alcohol 
distracted driving or fatigue. So we could save potentially at 
least 10,000 lives per year with just a 50 percent market 
penetration for autonomous vehicles, which is pretty 
substantial.
    We also found that a cooperative adaptive cruise controls 
could potentially increase lane capacity on our existing 
highways by 21 percent, cutting fuel consumption by 224 million 
gallons per year, for a savings of approximately $37.4 billion 
annually. That is very substantial, and that is, again, with a 
50 percent market penetration.
    And then, of course, these vehicles will provide increased 
mobility for the disabled, for children, for the elderly, 
segments of the population that did not previously have access 
to this level of mobility, and that could provide tremendous 
economic benefits for society.
    And so we estimate that with simply a 50 percent market 
penetration, comprehensive costs will save approximately $3,320 
annually per vehicle, and of course, there are over 250 million 
vehicles in the United States today. So those numbers add up 
pretty quickly.
    However, there are substantial barriers to implementing 
autonomous vehicles and achieving that 50 percent market 
penetration. The cost is going to be the biggest one. We 
estimate an initial cost will be approximately $100,000 per 
vehicle upon market entry. That is obviously beyond the reach 
of the average America. That cost is going to have to come down 
for us to achieve these benefits.
    Second, there are no current standards in place for 
licensing and liability for these vehicles. We are going to 
have to get that done in order to achieve these benefits.
    And then, third, the security and privacy concerns need to 
be addressed. You need to make sure that no one can hack into 
the system and potentially create problems that way, and of 
course, privacy is always an issue for people who are driving 
or riding in autonomous vehicles.
    Therefore, we propose the following policy recommendations:
    One, we need to expand autonomous vehicle research in order 
to figure out how to get that cost down. That is probably the 
number one priority.
    Number two, we need to begin developing Federal guidelines 
for licensing of autonomous vehicles. That has to happen now 
because these vehicles could potentially be on the road by the 
end of the decade, and we want to be able to take advantage of 
them as quickly as possible in order to capitalize on these 
benefits.
    Number three, we need to being determining appropriate 
standards for liability, security and data privacy. That also 
is something that we can start on right away.
    So in conclusion, the benefits from autonomous vehicles are 
substantial, but the barriers that exist are also substantial. 
We do feel that these can be overcome. However, even before 
full automation, there are substantial benefits that can be 
achieved from simply adopting many of these technologies that 
we have talked about today.
    And through expanding research and creating effective 
standards and regulations for autonomous vehicles, we have the 
opportunity to take advantage of these benefits sooner rather 
than later, but we must seize that opportunity or otherwise we 
could potentially let these economic benefits slip away.
    Thank you so much for having me here today, Chairman Petri 
and members of the committee. I appreciate the opportunity to 
testify.
    Mr. Petri. Thank you. Thank you for your testimony. Thank 
you all for your testimony.
    I guess I will start off the questioning. One issue that I 
wanted Administrator Strickland to address, we engaged in a 
little correspondence earlier, and it has to do with the 
statutory authority of NHTSA to issue regulations. It clearly 
has the authority to issue regulations concerning the safety of 
autonomous vehicles, but I understand it is considering 
guidelines regarding portable electronic devices, such as GPS 
navigation systems and other smartphones and other mobile 
communication devices which are not integrated into the vehicle 
but are used in the vehicle and out of the vehicle.
    Do you have legislative authority to do that now or do we 
need to address that to figure out how that works within our 
congressional division of responsibility?
    Questions are being raised in the industry, and I wondered 
if you have a response or are preparing one to that.
    Mr. Strickland. Yes, sir. We are actually preparing a 
formal response for your letter, but I am happy to sort of give 
you an outline of the agency's authority in this area.
    The core is through the Motor Vehicle Safety Act where we 
have the statutory authority to clearly regulate, you know, the 
full automobile on road, public road automobiles, as well you 
know, and including medium-duty and heavy-duty trucks.
    But it also reaches to motor vehicle equipment. Now, that 
would cross a span of devices and technologies. More 
specifically, your letter asked the question regarding portable 
devices, things such as, you know, a Samsung Galaxy or an 
iPhone, and our authority does reach to those applications on 
those devices that can be classified as motor vehicle 
equipment, and, Mr. Chairman, that is actually a very broad 
scope of issues. I mean things like, you know, navigation on an 
iPhone.
    If you see the iPhone application has three tabs. One has a 
person walking for walking navigation. One has one for transit 
for transit directions, but there is also one for a car. That 
is a piece of motor vehicle equipment. I think we have very 
strong precedent to be able to make that extension.
    In addition to that, there are applications that may not be 
specifically designed or intended for use in the vehicle, but 
can be reasonably expected to be used in a driving environment. 
Those are also motor vehicle equipment. While, you know, that 
authority is not limitless in that area, it is very broad, and 
we plan to work collaboratively not only with the 
manufacturers, which we already have, but with those device 
manufacturers, application manufacturers through our work in 
guidelines in order to make sure that all of these things are 
working in the proper zone of safety.
    Mr. Petri. Well, it is an interesting area that is a little 
bit new because of the way computer technology has evolved and 
things being small and multipurpose, and so on. We want to 
obviously be sensitive to this. The primary requirement is 
safety of the vehicle, but to have too broad a regulation where 
it is inappropriate because something might be carried on a 
vehicle raises issues as well.
    So I am glad you are taking an interagency approach and 
have to be doing a lot of consulting with the industry and 
other experts to figure out how to prevent us from snarling 
things up.
    Mr. Strickland. Absolutely, Mr. Chairman. Just as one 
follow-on, I just want to actually thank not only some of the 
witnesses here at the table and their companies, but a lot of 
others. The goal for us ultimately in the fight against 
distracted driving in the opinion of the agency is a 
technological breakthrough, being able to identify the driver 
from the passenger, having the driver have to interlock their 
device or pair their device with the vehicle with a good, safe 
driving, you know, display that follows our in-vehicle 
guidelines, and allowing the passenger to play as many games of 
Angry Bird as they want.
    Once we get there, I think that we have the opportunity to 
have a tremendous safety breakthrough, but if it is achievable, 
we all need to work together on that, and I appreciate your 
support and your question on that, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Robinson, you mentioned one concrete thing we could do 
is to make sure that to the extent we can, working with the 
States, that there is good marking on highways, and that is 
obviously of importance for safety in any event. But could you 
explain why that is important or how soon that needs to be done 
so far as these innovations are concerned?
    Mr. Robinson. Certainly, Mr. Chairman. Thank you for the 
question.
    When you realize that many of these systems cue off of 
visuals that are provided by cameras, the lane markings become 
very important to your operation of these systems. So the 
better the markings, the more effective the systems are.
    And for that reason if you have older roads that do not 
have markings that have been painted in anyone's recent memory 
or you have weather conditions that get in the way of being 
able to track the markings, you can have difficulty. That is 
why the driver is so important at all times.
    But it is a basic matter of being able to see the lines by 
the cameras that are on the vehicles.
    Mr. Petri. Thank you.
    I have other questions, but I think I will submit them for 
the record and call on Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman. Thank you for holding 
this very interesting meeting.
    I have so many questions. First, it is hard for me to 
fathom a car in New York City being without a driver. I mean, 
it is hard enough with a driver.
    [Laughter.]
    Mr. Sires. So you know, trying to visualize this is very 
difficult.
    The other question that I had is, you know, I worked on the 
fixing up of the E-Z Pass in New Jersey, and people were 
concerned that they were being tracked. I assume that with this 
car it is a lot easier to be tracked, and I think that is one 
of the questions that you are going to have to address because 
it was big issue trying to deal with the E-Z Pass and finding 
this thing.
    The other thing is I am interested in the retrofit of the 
highways. Mr. Steudle, you said you would have to do some work 
there. Can you just talk a little bit about that?
    What does it entail? You know, how much money is it going 
to cost? You know, do we have to place signals on the highway?
    Mr. Steudle. Actually, there is an analysis underway. 
AASHTO is developing what is called a footprint analysis. What 
would the need for highway retrofit look like? Frankly, it 
depends on what the final technology looks like.
    If we had done this 6 or 7 years ago, the estimate would 
have been significantly higher because at that point they were 
talking about roadside units every quarter mile, which was, 
frankly, just not possible to do.
    So I think now you are looking at basically traffic signals 
that have some form of technology in them that can communicate 
with the vehicles as they are driving down the road.
    I think once the technology standard is set, some of the 
prices will come down. It is very difficult to tell you that it 
is going to cost this much money today because the technology 
is changing so fast. We are learning through the model 
deployment safety pilot, which the U.S. DOT has underway in Ann 
Arbor, Michigan, is about what the infrastructure needs are 
really, how far these traffic signals can actually communicate, 
and we are finding that they actually are more efficient at a 
distance twice as far as what we originally intended them to 
be.
    So it is a work in progress, but I suspect that where you 
are going to see the initial technology is in traffic signals 
where you have a communications backbone that links back into 
our traffic management systems.
    Mr. Sires. Are these any sensors that you are going to have 
to put on the highway? Do you know what I mean?
    Mr. Steudle. The traffic signal is a dedicated short-range 
communication radio. It is a transmitter that would receive. It 
is the same frequency that vehicles-to-vehicles use, but then 
it is from the vehicle to the infrastructure and back to the 
vehicle. So, it basically is a receiver and a transmitter in 
the traffic signal.
    The reason you select a traffic signal is because that is 
where the collision points are located most frequently.
    Mr. Sires. You know, I used to have a 1965 Mustang that I 
did a lot of work on, you know, many years ago. I cannot 
imagine anybody doing any work on these cars that are so 
sophisticated, and to me I think it is just going to put people 
out of work. You are going to have to send these cars back to 
the shop. I cannot see anybody doing work on these things. I 
mean you have to be so sophisticated, and I guess that is where 
we are headed.
    Can anybody tell me if we are going to put people out of 
work?
    Mr. Steudle. Well, I definitely would defer to the OEMs on 
the panel----
    Mr. Sires. You can pass that around.
    Mr. Steudle [continuing]. To speak to the ability of shade 
tree mechanics. However, the one great thing about electronic 
systems, they do actually create efficiencies and improve 
safety in all vehicles. Yes, it may be beyond an individual 
shade tree mechanic today to change your oil and take a look at 
your braking system--the type of thing you could do on a 1965 
Mustang. But, we do have the ability, frankly, to achieve 
improvements in fuel economy, improvements in safety, and 
reduction of costs for all of these things, which are enabled 
by new electronic systems.
    Mr. Sires. All that stuff just tells me it will put more 
people out of work. But, you know, I get it. It is the future. 
That is where we are headed. You know, I am just trying to 
figure it in the next few decades what is going to happen.
    Can you just talk about it a little, Mr. Robinson?
    Mr. Robinson. Certainly, Congressman Sires.
    And, by the way, I suspend disbelief whenever I am in New 
York City, too. I close my eyes a lot in the back of a cab. It 
is not autonomous driving, but it is close.
    This is technology that, quite frankly, is going to be 
liberating, and I understand your concerns, but we are talking 
about a future state where I think the technology is actually 
going to have the reverse effect on the one you are concerned 
about. I think it is going to create jobs ultimately.
    I think all of these technologies are going to require 
technicians. They are going to require people capable of 
working on these systems, and it is different than the state we 
have today or with the old cars that I have worked on as well. 
But I think this is actually going to be a liberating thing in 
the final analysis.
    Mr. Sires. Right. Thank you.
    I mean, I think this is very exciting the more I read about 
it, but it is just scary to me anyway.
    Thank you very much for being here today.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Ribble.
    Mr. Ribble. Thank you, Mr. Chairman. And I want to thank 
everyone on the panel. This has been really interesting.
    Mr. Christensen, I just want to talk a little bit about Wi-
Fi and the amount of demand that, as we picture this in the 
future, how much demand there is going to be. I understand that 
efforts are underway to find a compromise so that Wi-Fi 
consumers can share the unlicensed band of a spectrum with 
Government transportation agencies and auto companies.
    Since the DSRC technology is not yet on the road, there is 
an opportunity to develop both systems to allow efficient use 
of the band. Would you be open to accepting modifications to 
the industry's plans if this flexibility were to allow 
efficient use of the band and avoid interference?
    Mr. Christensen. So thank you for your question, 
Congressman.
    This is a key area. The ban that was set aside for DSRC is 
critical. It was set aside for vehicle safety. So we feel that 
is very important to maintain that band. We understand that 
there are other uses out there, other individuals who would 
like to utilize that band. There may be a possible for some 
sharing opportunity, but that would require extensive testing 
and guaranteeing that there would be no interference or cross-
talk across the band because, again, you are talking about 
Internet access for an individual or safety in a vehicle, and 
of course, we are prioritizing that safety.
    Mr. Ribble. Yes, I mean, the FCC has identified 75 million 
hertz of spectrum, which is more than the amount used today by 
billions of Wi-Fi devices. It seems fairly large, and I am just 
curious if the automotive manufacturing industry is willing or 
interested in putting any ideas on the table to make the band 
use more equalized across all uses in the country.
    Mr. Christensen. We have been involved with the discussion 
and are very interested to understand more and, again, do this 
testing and understand what the possibilities may be, but we 
need to be very careful in this area and truly understand what 
type of cross-talk or what type of issues we could have in this 
area, and again, weigh those priorities and really understand 
before we move forward or before we make any changes or give up 
some of that spectrum to make sure that, yes, it is a 
significant amount of bandwidth, but we also need those 
protections on either side of the band that we are working to 
guarantee that the system is functional.
    Mr. Ribble. OK. Good. Thank you for those comments.
    Mr. Robinson, just a quick question for you. In your 
testimony you said that we need to provide an environment that 
promotes the development and implementation of these 
technologies in the U.S. rather than other countries. Can you 
expound on that a little bit?
    Mr. Robinson. Sure. What I am specifically referring to, 
Congressman, is creating an environment where the risk 
associated with putting these systems on the road is not so 
prohibitive that it becomes a disabler so that we are not 
forced to go first to Europe or China or some other location 
where we have a better environment. That is all we are 
concerned about.
    And I realize that presents some real challenges because it 
is new territory for all of us, but I think it really will be 
an enabler if we can find a balance with technologies that have 
been tested and regulated ultimately and that comply with those 
regulations to be used in this country without undue burden and 
risk associated with trying them here first.
    Mr. Ribble. You speak specifically of your concern about 
frivolous litigation for systems that meet performance 
requirements and relevant Government operating standards. Are 
you looking for some type of assistance there?
    If you build something that complies with the performance 
requirements and standards, that you want protection from the 
litigation; is that what you are looking for?
    Mr. Robinson. Yes. I don't have all the answers, 
Congressman, but I think that some balance that would recognize 
the compliance with the regulated systems that we are talking 
about ultimately and not having to worry about frivolous 
litigation.
    I do not want to sound cynical about this, but we are the 
most litigated industry you can find, and it should not shock 
anyone to know that that becomes a factor in the way we think 
about where to deploy and learn out these systems. So we are 
not looking for a pass. We are looking for being responsible 
and stepping up to our obligations, but at the same time of 
having a reasonable opportunity to not be overexposed, if you 
will, for building systems that are compliant with Federal 
standards.
    Mr. Ribble. All right. Thank you.
    And you are testifying before Congress. So your cynicism is 
warranted here. I thank you very much, and I yield back.
    Mr. Petri. Thank you.
    Ms. Esty.
    Ms. Esty. Thank you, Mr. Chairman. I want to thank you for 
holding this hearing and for all of our witnesses for helping 
us with this very critical issue.
    We have heard a lot about the benefits of this technology. 
So I would like to turn to the challenges that we face and how 
those of us here in Congress can be constructively part of 
addressing those challenges.
    Broadly speaking, I see two major challenges. One has to do 
with affordability, and the other has to with consumer 
acceptance, and some of you have referenced both of those 
issues.
    If consumers do not trust the technology, they will not 
adopt it, and if it is too expensive, they also will not adopt 
it. So we have some challenges around that.
    So for Mr. Strickland, NHTSA has introduced some 
preliminary statements about the timeframe to achieve vehicle 
automation, and if you could talk a little bit more about what 
it is going to take between level zero and level five, do you 
have the resources to proceed through these stages?
    What is going to be necessary for the timeframe to achieve 
the 2020 or into the 2020s, depending on which of our witnesses 
you are talking about, to achieve the level of confidence that 
we would need to have on the public's part?
    Mr. Strickland. Well, Congresswoman, we have laid out a 
research plan over the next 4 years to talk about preparing for 
the automated future at the various levels. While we at this 
point see level five of automation, which is a fully autonomous 
vehicle being far off in the future, clearly there are lots of 
components, including things that are on the road today, which 
are the foundations which can improve safety.
    We do have adequate resources right now for us to do the 
research that is underway. Clearly, as more advances and, 
frankly, new innovations, new technologies come onboard, we 
will clearly have to always reevaluate our plans as to making 
sure that we are prepared, but the work plan, our new Office 
for Electronics that we have started at NHTSA, in addition to a 
number of other pieces of work that we are doing at the Vehicle 
Research and Test Center out in East Liberty, Ohio, we are very 
prepared to be able to work with the industry to be able to 
create a level playing field for safety and innovation so that 
we can see this automated future come to fruition.
    Ms. Esty. Anyone else with thoughts on this?
    Mr. Robinson. Congresswoman, I guess I would like to 
address your observation about cost. It is true a lot of these 
systems initially are expensive. On our products, for instance, 
a lot of these have been introduced in Cadillacs--adaptive 
cruise control, crash mitigation braking--but it has not taken 
long for us to now introduce those same technologies in a 
Chevrolet. The new Impala has these same technologies.
    These are the building blocks upon which the kinds of 
future state that we are talking about can be engineered. So I 
think while there is always initially a high cost with the 
introduction of these systems, I think over time, and by the 
way, the customers love these systems, they are very intuitive, 
and they work, and you do not have to learn over again how to 
drive a vehicle.
    So I think part of the socialization process that you are 
concerned about is going to take place naturally as these 
become more and more mainstream building blocks that allow for 
the ultimate state that we are talking about.
    Ms. Esty. And I would like to turn for a moment, also 
having just come out of the Science Committee where we are 
spending a lot of time looking at cybersecurity. There has been 
a reference early already today about privacy concerns of which 
obviously we are hearing a great deal right now. If some of you 
could address the concerns about cybersecurity, what will we 
need to develop to ensure that no one can actually misdirect 
intentionally these systems?
    Because obviously that will certainly shatter consumer 
confidence if we are not simultaneously thinking about how 
these interactive systems can protect against cyber attack.
    Mr. Strickland. I will begin, Congresswoman. We at NHTSA 
recognize this has to be bedrock. In order for us to have a 
reliable system, it has to be rigorous against electronic 
attacks. It also has to be beyond Six Sigma reliable as the 
auto industry already does. We are working very hard internally 
to be able to work with the automakers to figure out what that 
level of protection needs to be.
    One issue which is new for us but clearly we are very 
capable of the task is that before we always set our 
performance standards, you know, here is the miles per gallon 
you have to achieve, you know, for the CAFE standard.
    For electronics and cybersecurity, we are likely going to 
be looking at process standards. What are the processes the 
manufacturers have undertaken to test their systems to the 
certainty and reliability of what an anticipated attack would 
be?
    And you know, while I would love to be able to say this is 
more of a futuristic notion, we are seeing it today. You know, 
there are automakers that now have the ability to actually 
change vehicle performance, you know, and actual mechanics 
through pushes from the Web, and so we have this today.
    So clearly, the manufacturers from a liability and 
reliability standpoint have to address it in their own business 
plans, but for us as an agency, we clearly have to have a 
process to make sure that those standards are, you know, best 
for the driving public.
    Ms. Esty. Thank you very much. I have some other questions, 
but I will submit them, other than just to say to the doctor, 
please keep advocating for basic research and development, and 
I hope all of you will continue to sound the importance of that 
in order for these technologies to be able to be rolled out in 
the consumer sector.
    Thank you.
    Mr. Petri. Thank you.
    Mr. Hanna.
    Mr. Hanna. Thank you, Chairman.
    I have a basic question. I find all of this fascinating, 
and, Mr. Schank, you mentioned the $3,220 per car. You think 
maybe roughly $100,000.
    Mr. Robinson, the automobile no matter how less expensive 
it becomes through whatever means, mass production, et cetera, 
growth in demand, it will never be less expensive than a basic 
automobile without this.
    I guess I am interested in anybody's answer about what 
those incentives might be for an individual to spend more money 
on a car in which they have to be--maybe I am mistaken in 
this--but at least equally alert and engaged as they would with 
their normal car that we drive today.
    I guess what I am asking you is: what are the demand 
dynamics in this?
    Societal costs aside because for the moment we are not 
buying people automobiles; they buy their own. So it is fair to 
say they are not a big part of the component. So maybe, Mr. 
Robinson, since you are in the business.
    Mr. Robinson. Well, Congressman, your observation that 
people buy what they need when they want is a fair one. You 
know, the average age of an automobile today is over 10 years. 
People, first of all, have high-quality vehicles for the most 
part, and so they are able to drive them longer, but the truth 
is, I mean, if we implement all of these technologies tomorrow, 
it would still take 10 or 11 years for the natural process if 
people were able to buy these vehicles right now.
    I do not have the answer to your question about what the 
demand levels are going to be ultimately because, quite 
frankly, we are not smart enough today to know precisely in 5 
or 6 or 7 years how these technologies are going to evolve and 
what the cost is likely to be.
    Dr. Schank gave you some numbers from his research. I am in 
no position to talk to those numbers other than to tell you 
that as we look at other systems that have been put on vehicles 
over years, the cost will come down over time if it is a system 
that people value.
    People have shown----
    Mr. Hanna. Well, that is my point. What is your view of the 
value of this to anyone in this room?
    Mr. Robinson. I look at it in building blocks. We are 
trying to bite this thing off in pieces because we are not 
looking at what are we going to price 10 years from now. We are 
looking at what systems do we have today that add value, and 
that is why we talk about things like adaptive cruise control, 
crash mitigation, braking, those types of things, because 
people value them. We can do them at a cost and provide a value 
that people are prepared to pay for it, and we have had great 
customer experience.
    So I think that is the model on which we will build.
    Mr. Hanna. So that is a marginal thing, but this is 
actually a big leap to go to automated vehicle.
    Mr. Robinson. Sure. It is a leap built on many steps.
    Mr. Hanna. Right. Mr. Schank is chomping at the bit there, 
I think.
    Mr. Schank. Yes. Well, I think there are some real benefits 
to drivers from spending a little bit extra to potentially 
reduce the chances of being involved in a fatal crash and 
potentially reduce their fuel consumption, but maybe a more 
obvious one that we have not talked about is the potential for 
these vehicles to go and park themselves, which is something 
that I think all of us would find convenient if you are going 
somewhere and you do not have to worry about parking because 
the vehicle will just go off and park itself.
    But then the second possibility is that the dependent 
populations that currently do not have access to automobiles 
will be very glad to adopt this technology, the elderly, 
disabled, and potentially even children.
    But I would like to point out, and I do not know what the 
manufacturers think about this, but some of our research 
indicates that it is possible that the total number of vehicles 
on the road may decrease as a result of the introduction of 
autonomous vehicles because so many vehicles will be available 
for use when there is no driver in them. So you can have 
greater sharing of vehicles and people will not necessarily 
need to own as many vehicles as they currently do today. So 
that is another interesting question to think about.
    Mr. Hanna. So I dial a number and the car shows up, and I 
get in and I leave it wherever I got out.
    Yes, sir.
    Dr. Rajkumar. It is very tempting to think of a driverless 
car as this revolutionary endpoint. It is an evolution when it 
happens. It is not a question of if, but when. But the progress 
towards the endpoint will consist of multiple intermediate 
milestones where a car is more aware of what is happening 
around it, and even if the driver is not paying attention for 
whatever reason, such as distracted driving, tiredness, 
sleepiness and so on, the car will basically be able to prevent 
an accident from happening rather than drifting off of the lane 
or going off of a cliff. All of those accidents will be 
prevented. So every driver will basically be able and willing 
to spend a few thousand dollars more to get those capabilities 
in place.
    Humans can be very smart, of course, but they can also be 
very stupid at times. Basically this technology will prevent 
humans from hurting themselves.
    Mr. Hanna. Thank you. My time has expired.
    Mr. Petri. Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chair.
    This has been an interesting hearing, and I kind of looked 
at it as ``Star Wars'' when I heard about it. I still think 
about it somewhat that way.
    I remember back in the 1980s I was in the Tennessee Senate, 
and a fellow came up to me and he told me that this man named 
Frank Gorrell was representing this company and they were going 
to have phones like Dick Tracy, and everybody was going to have 
one, and I thought he was absolutely out of his mind.
    Thinking back upon that, yes, I envision the day we will 
have these vehicles, like the Flintstones or something, but--
who, the Jetsons? Yes, that is the opposite.
    [Laughter.]
    Mr. Cohen. Thank you.
    I did not watch those things.
    But I am kind of thinking about like you said it was great, 
you know, the car. I was thinking I go to Contral and you have 
to find a place to park, and you just get out and let the car 
go. How does the car know where it says ``no parking from 4 
o'clock to 6 o'clock'' or all the myriad signs, Dr. Schank? How 
does the car know that, or which lot to go to?
    Mr. Schank. Well, presumably you could have the vehicle go 
back to your house depending on how long you are planning on 
being there. So you cannot think about the constraints of the 
existing system necessarily being that way.
    But also presumably we would have to change our parking 
policies to some degree in order to adapt to these 
technologies, and we are already moving in that direction. I 
mean, parking is becoming more automated. I usually pay for my 
parking by phone. I do not pay by coins at the meter anymore, 
and so as you continue to be able to do that, you are going to 
have more interaction between computers, and they are going to 
be able to communicate with each other about when you can park 
in a certain space.
    Mr. Cohen. So they will just have to have some kind of 
governor so that there will be a beep and will know that you 
cannot park here because it is the wrong time?
    How will it know an emergency vehicle?
    They will all be coded, I guess.
    Mr. Schank. Right. There is going to have to be a greater 
integration of these technologies with existing technologies so 
they can communicate with each other about that type of basic 
information.
    Mr. Cohen. And just as Representative Sires was concerned 
about the loss of jobs, what are municipal governments going to 
do without being able to manufacture funds from parking tickets 
and traffic offenses?
    [Laughter.]
    Mr. Cohen. You are going to ruin the basic structure of 
municipal government. It is just a thought I had.
    I got a ticket and I went to court on it, which was a 
mistake, I guess, for parking more than 12 inches from the 
curb, which I did not know was even the law, and I do not think 
I did it. But the car is going to know 12 inches?
    I mean, how is the car going to know the Memphis City code?
    Mr. Schank. These are all challenges that are interesting 
to think about, but certainly can be overcome. You could, for 
example, have the car to be programmed with the code. It could 
easily be programmed with the code of any city you might 
presumably go to, just like you have GPS systems that cover the 
entire country right now or the world, and you can drive your 
car anywhere and it knows exactly what the roads look like.
    So it is plausible to introduce that kind of information.
    Mr. Cohen. I guess it is, Doctor, but when you suggest that 
the car would go home to park, that mitigates against the idea 
of saving fuel, you know.
    Did any of you all make Web sites maybe since you are 
working on this? Maybe you could kind of back off for a couple 
of months and help us with the Affordable Care Act.
    Mr. Schank. The car might go home to park though because 
someone else needs to use it at home to go somewhere while you 
are at the restaurant. So it could be an efficiency as well.
    Mr. Cohen. You mean I would give my car to somebody else?
    Mr. Schank. In your family. Let us say your wife wanted to 
use it while you were at the restaurant, you know, and she 
needs to go somewhere.
    Mr. Cohen. Who would I be at the restaurant with?
    [Laughter.]
    Mr. Cohen. You certainly have a futuristic society, Dr. 
Schank.
    [Laughter.]
    Mr. Christensen. Congressman, if I could just interject 
real quickly, another area from a parking standpoint is with 
EVs and the proliferation of EVs. Obviously infrastructure is 
still going to be limited. We are trying to get more 
infrastructure for charging, but one of the areas we are 
looking at is having an EV be able to seek out that charging 
location and automatically charge itself in those conditions, 
again, with the limited funds that are going to be available 
for the proliferation of infrastructure. How can we make the 
cars seek out that infrastructure that it is looking at? So 
another area of research.
    Mr. Cohen. I can see a lot of benefits, and the thing about 
the drunk drivers, I mean, that is 40 percent of them. The 
problem is those people do not know they are drunk when they 
get behind the wheel, and we have already got like ignition 
interlock devices and difficulty of getting judges to require 
those to be put on the vehicle.
    I guess it would work, but some of these technologies will 
just help with driving in general. Do you not already have 
these braking systems and fuel saving mechanisms that would 
already work like on trucks now? Are they that compatible?
    Like in New York, I cannot imagine what will happen with 
the immigrant population if you have automatic driving all the 
cabs. They do a great job. I do not see how they could be any 
better.
    Anyway, I yield back the balance of my time.
    Mr. Petri. Mr. Davis.
    Mr. Davis. How do you follow my good colleague, Mr. Cohen 
from Tennessee? There you go.
    [Laughter.]
    Mr. Davis. Thanks for being here, first of all. A very 
interesting discussion. I obviously agree with my colleague, 
Mr. Cohen, that some things that we may not be able to see as 
futuristic actually become reality like cell phones. I have 
some concerns representing a rural district similar to when 
cell phones became active in society. The rural areas fell 
behind. The rural areas did not have the new technology or 
access to new technology like we do now.
    I hope that through testing, research and development, 
autonomous vehicles can get to the point where they can 
understand the Memphis City Code.
    Now, I do not think Mr. Cohen understands the Memphis City 
Code, but that is OK. That is OK, but I do have some concerns. 
First off, while I have you here, Mr. Strickland, I know it 
does not necessarily have everything to do with the autonomous 
vehicles, but just a few years ago electric vehicles were 
discussed as new and innovative, and I saw a story come out 
today in Bloomberg about Tesla and about three electrical fires 
with Tesla.
    I am concerned. I want to make sure that NHTSA holds 
Tesla's accountability standards to the same standards they 
have done with Chevy Volt in the past instance and also with 
Fisker's Karma plug-in.
    Can you tell me what the next step is in NHTSA's 
investigation and process into Tesla's three fires?
    Mr. Strickland. Oh, certainly, Congressman. First and 
foremost, NHTSA holds all of our manufacturers, tier one 
supplies, and equipment supplies equal before the law. So we 
follow the same process in our defects investigations in the 
same way every single time.
    This morning it was probably announced that we opened a 
formal investigation into the Tesla Model S. While there are 
three fires in total, there are only two that happened in the 
United States. One is in Mexico, and the reason why the agency 
moved forward to open a formal investigation is that we looked 
at, you know, the damage patterns and the issues for those two 
crashes.
    The first crash in Seattle, Washington, looked anomalous, 
and that is why we at that point were pre-investigatory and 
took no formal action.
    The second crash and fire in Tennessee had a number of 
similarities, therefore, two being a trend and we clearly saw 
some issues. We decided to open a formal investigation, which 
is we are going to look at whether or not the Tesla Model S 
countermeasures in dealing with road hazards are adequate, and 
whether or not it poses an unreasonable risk to safety. We are 
working very closely with Tesla.
    My understanding is that Mr. Musk has already said he will 
be very happy to cooperate with our investigation, which we 
always appreciate. When we come to our final conclusions, we 
will definitely report them publicly and be happy to report 
back to the committee on what we found.
    Mr. Davis. Thank you, Mr. Strickland.
    A question not Mr. Robinson. Do you anticipate that with 
the progress in automated vehicles, that they would be all 
electric, hybrid, gasoline, or would it just be a piece of 
technology that would put on any vehicle that would sell out of 
a dealership?
    Mr. Robinson. Thank you, Congressman.
    I think it depends on how the vehicle is going to be used, 
quite frankly. To the point about being in a rural versus an 
urban area, a lot of the technologies that we have been talking 
about as building blocks, adaptive cruise control, automatic 
braking, those are on our new trucks. So it is not just urban 
vehicles that we are talking about here.
    And, two, I think to your point about what this enables 
from an engineering standpoint down the road, I do think 
ultimately if you get to a point where you can take out further 
weight on vehicles because of the fact that the vehicles are 
not crashing anymore, it liberates the engineers to come up 
with all kinds of propulsion solutions to fossil fuels.
    So down the road, sure, there are all kinds of opportunity 
for that to come into play. I think it is probably something we 
have not focused on so much here. We talk a lot about safety, 
which is a huge issue, but I think it does create more options 
for all of us in terms of how the vehicles are propelled down 
the roadways.
    Mr. Davis. Well, thank you.
    And I agree. I mean, I think we already have this 
technology in many of the large pieces of farm machinery. In 
Illinois where I live, they are out in our fields on a regular 
basis. So the potential is here. I just want to make sure that 
a lot of that potential is further researched and developed; 
that we take into consideration not just the congested cities.
    Because like my colleague, Mr. Sires, I, too, will be 
amazed when an automated vehicle goes through New York City, 
but I think we would all be more amazed for an automated 
vehicle to go through my home town of Taylorville, Illinois, or 
11,000 people.
    So if we can continue to put a focus on the rural areas, 
too, during this discussion, I would sincerely appreciate it.
    And I do not have any time left, Mr. Chairman. So I cannot 
yield back.
    Thank you.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I am proud to say that while some of my colleagues are 
amazed at this new technology and titillated by its 
possibilities, the State of Nevada is on top of this. We were 
the first State--often we are the first--to actually adopt a 
law to regulate these kinds of vehicles, the use of autonomous 
on our roads. We did that back in 2011.
    And then in the past legislative session, we passed Senate 
Bill 313 that looked at some aspects of this technology like 
minimum insurance coverage and other key factors for those who 
want to permit a vehicle for testing. So we are already moving 
down this road, and I am glad to see that the Federal 
Government is taking an interest in it.
    In the past, we know that the Federal Government has 
regulated different safety aspects of both vehicle construction 
and vehicle use, whether it is seat belts or speed limits or 
DUI limitations, things that have saved lots of lives and lots 
of money.
    So I would ask you: what can we do at the Federal level to 
help States begin to plan for this technology because it moves 
very quickly?
    And also, as we move into looking at the next 
transportation authorization, are there any things we need to 
build into that in advance so that we are not playing catchup 
and trying to fix things after the fact as this technology 
moves ahead?
    And I would just ask any of you to address that. Yes, sir.
    Mr. Steudle. Congresswoman, I would be happy to address 
that. I think as you look forward to reauthorization of MAP-21 
next year, one of the most important things is, as many of my 
colleagues have said, we need to continue the research piece. 
We are close in some aspects, but we still have a long way to 
go. There is a lot more evolution needed for this whole 
initiative.
    Therefore I think that within MAP-21 we need a strong 
statement of continued research in this area.
    As far as actions that I think the Federal Government could 
take from a regulatory perspective, the model legislation that 
NHTSA has prepared is a great start. I would agree with my 
friend from General Motors that we can do this 50 States one at 
a time. We need to undertake this as one country. We need to 
say these are the requirements that we need as a country for 
autonomous vehicles, whether in the testing phase or in the 
operations phase so that everybody knows that when you are 
driving a vehicle from Michigan to Ohio and all the way to 
Nevada that you have the same requirements. That is going to be 
very, very important and, frankly, that could be part of the 
reauthorization component as well.
    I do think that reauthorization of MAP-21 needs to address 
the technology components, where we are going, and reserve 
funding for future research.
    Ms. Titus. Mr. Strickland?
    Mr. Strickland. Actually, Congresswoman, I was the only one 
to actually thank your colleagues and the leadership in the 
State of Nevada because actually as they were preparing their 
work in 2011, they asked NHTSA for technical advice, and we 
actually were able to provide a good amount of assistance for 
them in their process and path going forward. So we really do 
appreciate, you know, including the Federal-State relationship 
and be able to developing that.
    I think Kirk noted a couple of things that we are still in 
a research mode, and I think for all of us, in order to make 
sure that we have all of the components right, electronic 
reliability right, performance right, ultimately consumer 
acceptance, the foundation of research has to be solid because 
at the end of the day with a new piece of technology, the whiz-
bang notion is the first line of headlines, and the second 
headline is unfortunately that one of these systems does not 
perform as expected and is part of a crash or is responsible 
for a crash.
    So for us, we need to make sure that the State as test-
beds, you know, and the leadership of your State and the great 
State of Michigan, California and others in terms of creating 
the right test-beds and the right environment is an important 
aspect of it, but clearly being able to evolve and develop the 
policy underpinnings is important as well, as Kirk noted.
    Ms. Titus. Anybody else?
    [No response.]
    Ms. Titus. Well, thank you.
    Mr. Strickland, while I have you, I wrote a letter to you 
about the Focus Cities Program, since we are talking about 
safety and that is about safety and pedestrian safety. Could we 
get together afterwards or something so I can get a response 
back from you about my question?
    Mr. Strickland. My pleasure, absolutely.
    Ms. Titus. I will not take up time with this hearing, but 
since I have you here.
    Mr. Strickland. Absolutely.
    Ms. Titus. Thank you.
    Mr. Strickland. Thank you, ma'am.
    Ms. Titus. All right. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Williams.
    Mr. Williams. Yes, thank you, Mr. Chairman. And I want to 
thank all of you for being here today.
    And full disclosure, number one, I am from Texas. Number 
two is I am a car dealer. My family has been in the automobile 
business 39 and I have been in it for 43 years, GM, Chrysler, 
some other I do not would not tell you about, but so far back. 
Listening to this testimony, the first Biscayne I sold when I 
was a kid, the power steering was an option. So was a radio, 
and now here we are talking about this.
    But my first question would be to you, Mr. Strickland, just 
real quickly. You touched on Tesla. You know, Tesla has a 
checkered history in Texas, and one of the things I did not 
hear you say when we were talking about it, was this 
investigation that you are conducting, was it requested by 
Tesla?
    Mr. Strickland. No, sir. Our investigatory process is 
independent. It is confidential as well. We go through a review 
of the data, and then we make a determination whether a formal 
investigation is needed.
    After we have made that formal determination, we then reach 
out to the manufacturer usually 48 to 72 hours before we post 
something on the public Web site to inform them that we are 
opening an investigation, and of course, we ask and hope that 
they would collaborate and they will work with us through the 
investigatory process so we can come to a determination which 
is right for the safety of the driving public and clearly fair 
to the automaker.
    Mr. Williams. And it is important that everybody is on a 
level playing field.
    Mr. Strickland. Absolutely.
    Mr. Williams. I wanted to bring that up.
    The other thing is, Mr. Robinson, I appreciate your 
comments. Being in the business, when you talk about let the 
market work, make what the customers and the dealers want to 
sell, and frivolous regulations, litigations are killing the 
industry in many cases. I appreciate your comments to 
continually remind the Government that those are big options to 
the free market.
    And I also would remind you and humbly ask you to make sure 
your captive finance company is willing to finance these 
vehicle. That is important.
    The other thing, too, I would ask you, Mr. Christensen, is 
we talk about insurance. What does the insurance company say 
about this? How are you going to get insurance? How are you 
going to rate an insurance with no driver? How are these cars 
going to be insured?
    Mr. Christensen. That is a key issue moving forward, 
Congressman. I do not know that any of us really have the 
answer to that question at this point, but moving forward we 
want to work together and continue that dialogue and understand 
what this means for our customers, what the technology is able 
to do and what it means for the insurance companies so we can 
work together and answer that question.
    Mr. Williams. Yes, that is a an important issue.
    Mr. Christensen. Absolutely.
    Mr. Williams. And then, Dr. Schank, thank for you 
testimony. I would just say this to you. A hundred thousand 
dollars is a lot of money for one car. The car business is a 
volume business.
    But I will also go back and we have seen cars from the 
early 1970s, $3,000 up to $60,000, higher now, but that is a 
scary number. So you are going to have to work on that.
    The other things is, too, where I come from in Texas, and 
we touched a little bit about this, in all seriousness, 
something like this is going to have to be able to pull a horse 
trailer, and it just cannot be moving around finding people 
parking spots. If it is going to work and the customer wants 
it, it is going to have to be able to serve and it is going to 
have to be able to have some towing capabilities, if you know 
what I mean.
    And the other thing is I was not happy with your testimony 
when you talked about it might put fewer vehicles on the road. 
That is not what Mr. Robinson and I want to hear I do not think 
when you are in the business. But I do think technology is 
growing and probably we are heading in this direction, but cost 
is going to be important, how we are going to insure it, and I 
do think we talked about earlier in the year there was concern 
for jobs, and I am all about jobs, but I believe that as we 
move forward this will actually add jobs because we have seen 
in the last 40 years more technology brings in a much newer 
level of technician. No longer are these people wrenches, as we 
used to call them. They are high-skilled technology people, and 
I think it will actually add jobs.
    But from a person who is going to sell and get it right and 
make sure I can get them financed, would you do that, Mr. 
Robinson?
    But I appreciate your testimony and thank you for being 
here, and I yield back.
    Mr. Petri. Thank you.
    One of the disadvantages of being chairman sometimes is 
that you have to stay at a whole hearing. One of the advantages 
is that you get to ask a few more questions at the end if you 
would like, and on this particular occasion I do.
    One observation first. You mentioned how this technology is 
gradually being layered in, and in fact, has been for a number 
of years, and I think evidence of that is that the number of 
deaths on the Nation's highways has been dropping very 
significantly over the last 10 or 15 years. It used to be in 
the neighborhood of 40,000 or 50,000 a year, and now it is in 
the neighborhood of 30,000 to 40,000. So that is a long way to 
go to zero, but it is a huge improvement, as our population has 
been growing and all the rest of it.
    Secondly, we never really discussed the implications of 
this, and this may not be the place to ask about it, but for 
the commercial trucking industry, clearly this is technology 
that will make it easier for drivers. It will also help people 
driving commercial vehicles if it is deployed on them.
    We have been tightening up as a Federal Government on hours 
of service regulations. There used to be a little bit of an 
informal fudge factor with those because people kept log books 
and so on, but now with technology it enforce it and people 
like Snyder trucking in my area and others that are major 
logistics companies say that it may have some benefit in terms 
of fatigue and safety, but on the other hand it is costing our 
economy as their figures are coming in in this new thing 
billions of dollars in lost efficiency because of how it works.
    And so I am curious. If the concern is safety and fatigue, 
and if technology reduces the stress on a driver and have, in 
effect, less than full time, well, he is driving long distances 
and so on; if they have some of the new technology on board, 
would that provide an opportunity for us to modify some of 
these one size fits all hours of service rules to be related 
more to the capabilities of the vehicle?
    Is there some way we can have our cake and eat it, too, 
have greater safety and maintain efficiency?
    I mean we could have zero fatalities by just banning cars 
and trucks, but that is not the way to do it. The way to do it 
is to make it safer and more efficient, and the hours of 
service make it less efficient as it turns out, and 
considerably less. I mean, it is going to lower people's 
standards of living in the United States because that cost ends 
up being translated into higher prices for people who are 
already struggling.
    So it is not as though there is a free lunch in this world. 
I do not know if Mr. Strickland or anyone else would care to 
comment on that.
    Mr. Strickland. Certainly I will be happy to comment in 
part, Mr. Chairman. Clearly, in terms of the policy, the 
department and the specifics, it is better handled by the 
Federal Motor Carrier Safety Administration, Administrator 
Ferro. She is a person who knows this issue song, chapter and 
verse and would be better suited to speak to the policy 
specifics.
    I can be happy to speak to the technological specifics, 
which is that there is always an interplay and an interflow of 
technology between the light-duty fleet and the heavy-duty 
fleet. So things such as crash and braking system, forward 
collision warning systems, lane keeping systems, and you know, 
electronic stability control for heavy-duty vehicles which we 
are working on as part of a rulemaking right now are all things 
that we see in the light-duty fleet which could flow to the 
trucking fleet, which would improve the margin of safety.
    You know, we do believe that a number of the issues that 
beset the everyday driver of a vehicle would also be able to 
improve the abilities and, frankly, the success and safety of a 
commercial driver as well. It is something that NHTSA is 
working on specifically, but how that may sort of have an 
opportunity to modify current policies to make sure in terms of 
driver's time of service and hours of service, that is a longer 
and larger policy question, and I would clearly have to defer 
to the agency of expertise.
    Mr. Petri. Yes, sir.
    Dr. Rajkumar. I would make three more points, Mr. Chairman. 
First, my understanding is that fuel is the biggest cost factor 
for the trucking industry. With automation and connected 
vehicle technologies, trucks could be driving closer to each 
other on the highways at a uniform speed that would save 
significant amounts of fuel.
    Secondly, those technologies will also allow trucks to 
drive safely, because they are taking driver distraction out of 
the equation.
    And thirdly, many insurance claims in the trucking industry 
are the result of accidents that happen in the loading dock. 
When somebody is trying to pull into the loading dock, they hit 
something. We can reduce those accidents as well with 
automation.
    Mr. Petri. Thank you.
    One other thing struck me, and I do not know if Mr. 
Robinson would care to comment on it. Maybe other vehicle 
manufacturers provide this as well, but the technology is also 
helping to prevent theft and lower insurance costs in some 
regard, I guess. Onstar and others, you can call and they can 
turn your car off, and the police if they get your license 
number or whatever can call ahead and stop the car on the 
highway practically, as I understand it today, and that has to 
mean fewer auto thefts over time.
    Mr. Robinson. Yes, that is true, Mr. Chairman. We have that 
capability with Onstar. You know, the lesson in all of this as 
we are talking about these technologies is the interface 
between the technologies that have been developed separately, 
but they have a relationship to one another, and as we get to 
the V2V types of connectivity that Mr. Strickland and Mr. 
Steudle are talking about, I think it is just going to enhance 
all the more these systems that have been developed separately 
that enhance safety, but collectively are going to do an even 
greater job.
    Mr. Petri. Thank you.
    One final thing for me, and that is that Mr. Christensen 
and earlier Mr. Robinson and I were talking a little bit about 
how this is going, and, Mr. Christensen, you seemed to indicate 
a little more I do not know if you would say optimism or pace 
by saying you have a target of 2020 for autonomous vehicles. Is 
that as opposed to a building block approach or is that at a 
certain benchmark in a building block approach, or what does an 
autonomous vehicle in 2020 type goal mean?
    We do not want to oversell that in 5 years or 10 years 
there is going to be this car that you tell it's Garmin where 
you want to go, and then you hop in the backseat and go to 
sleep and it drives you off to Chicago or something.
    Mr. Christensen. Yes, thank you, Chairman.
    So as I mentioned, our CEO set a very aggressive goal for 
2020 for this autonomous vehicle. Primarily by setting these 
ambitious goals, he feels that that is the best way to drive 
innovation.
    What exactly the vehicle potential is in 2020, honestly it 
has yet to be determined in terms of the exact capabilities and 
what will be available. We do completely agree that it is going 
to be a step-by-step approach. There will be features added to 
the vehicle, driver assistance features. The vehicle in a way 
you could say is partnering with the driver moving forward, but 
we feel that by 2020 we will have a vehicle that has some level 
of clear autonomous capability that is recognized by the 
driver.
    But, again, there is going to be this balance between what 
the technology is capable of and what the customer is willing 
to accept at that point. So our direction is to strive for the 
best that we can do, the greatest technology, the greatest 
performance, and balance that with the customer acceptance.
    Mr. Petri. Thank you.
    Ms. Norton.
    Ms. Norton. My regrets that I have missed most of the 
testimony, but I will be interested in being briefed and 
reading the record.
    I met with some of you from GE. I understand that the auto 
manufacturers, of course, would be most logically developing or 
interested in developing this technology. Is this really 
practical?
    I asked if anyone had asked about the cost, and I 
understood that they had. Is this a practical way to approach 
the car of the future, or do you think that like--I do not 
know--electric cars or not electric cars, but hybrid cars, that 
the prices ultimately have come so that they are no longer out 
of reach?
    Mr. Christensen. Thank you, Ranking Member Norton.
    I can respond to that a little bit. As we move forward, 
would you let me know your question?
    Ms. Norton. Yes. I want to know if these cars and I 
understand that someone did ask about the price of the cars, 
and it was like $100,000.
    Mr. Christensen. Absolutely.
    Ms. Norton. So I am trying to find out with every kind of 
technology it costs a great deal in the beginning, and of 
course with more users the price goes down, and I am wondering 
how practical it is to even think about driverless cars given 
what the public expects to pay for a car.
    Mr. Christensen. So looking forward to 2020, we think that 
working with our suppliers, we found I will call it a glide 
path down to an affordable type technology for the certain 
types of scanners that we are looking at. This has been talked 
about for many years. Autonomous vehicles have been talked 
about, and there has been different methods or ways to achieve 
this in terms of implanting magnets in the road and having the 
vehicle follow that and what have you, but we are finally to 
the point that the sensor technology has the capability to 
provide that recognition that is necessary, and we see that it 
finally has that glide path down toward an affordable cost, 
that we should be able to achieve that by 2020. We can see the 
light at the end of the tunnel basically, that the cost will be 
affordable within the next 5 to 10 years.
    Mr. Robinson. The way I would answer your question, 
Congresswoman, is that we will get there in bites, and we will 
get there because we are providing value to the customer that 
they are willing to pay for as these steps are taken.
    An example would be that some of the sophisticated active 
safety systems we are talking about, whether it is adaptive 
cruise control or automatic braking, initially they would be on 
premium products. We are introducing those same features on a 
Chevrolet. The Chevrolet Impala has those features.
    Now, we probably could not have visualized that 5 years 
ago. So my expectation is that we will get there in steps. The 
technology will be introduced in steps when we get the cost at 
a level where the customer is prepared to pay for that value 
and sees that value for the money.
    Ms. Norton. Would it be easier to do this on electric cars 
than on cars that use every kind of fuel?
    Mr. Robinson. I do not think the propulsion system has as 
much to do with it as the technology reliability and durability 
itself, regardless of whether it is an electric car or a diesel 
driven car.
    Mr. Christensen. Yes, there are some advantages from a 
development standpoint, and we have used our Leaf as a 
development platform for autonomous vehicles because everything 
is already----
    Ms. Norton. Say that again. I am sorry. I did not hear you.
    Mr. Christensen. Our current Nissan Leaf, the electric 
vehicle, we have used that as our development platform. Being 
that it is an electric vehicle, everything on the vehicle in 
terms of the braking and acceleration is already electric. So 
it is an easy vehicle to adopt.
    But we see that the capability of autonomous vehicles can, 
as Mr. Robinson said, apply to any type of powertrain.
    Ms. Norton. Did you want to? Yes, sir.
    Dr. Rajkumar. Yes. The autonomous car at Carnegie Mellon is 
an internal combustion engine vehicle, so you can add the 
technology to that platform or to an electric vehicle. You need 
electric power to power the sensors, the computers, and the 
actuators. It is easier to do that with an electric vehicle, 
but it can be done on any platform.
    Ms. Norton. I see. Now, do I understand Google was also 
developing one of these autonomous vehicles? And what does that 
say about who is likely to be the leader in developing them?
    I mean, do you have to know something about cars in order 
to really do it?
    Mr. Strickland. Ranking Member, yes, Google is one of the 
nontraditional companies that is entering into the automotive 
space, specifically with the software package to enable a self-
driving vehicle in certain modes.
    And I think what you will likely see, frankly, in a number 
of spaces, and clearly the manufacturers can speak for 
themselves, auto manufacturers are sort of less being seen as 
auto manufacturers and seen more as just broad technology 
companies. So you will be seeing the manufacturers, frankly, 
entering into other spaces regarding to telematics and 
electronics and these other issues, just like Google is putting 
their systems onto, I think they are using a Toyota platform.
    So you may see, frankly, other nontraditional companies in 
the manufacturing space in the future years to come as well, 
but clearly, that also speaks to the fact of what NHTSA's 
responsibility is as an agency for us to create a regulatory 
playing field that makes sure that any company that is entering 
the space is actually producing systems that are safe and 
reliable, both from electronics and from a performance 
standpoint.
    Ms. Norton. Is there any place in the world that is ready 
to actually use autonomous vehicles on the road?
    Mr. Strickland. From our work and analysis right now, there 
is no fully autonomous vehicle that is ready for mass 
commercialization. As Mr. Robinson and Mr. Christensen noted, 
each of the manufacturers actually are working on the building 
blocks now and active safety systems, and I think what you will 
see is an evolution of these technologies over the years as 
crashing and braking systems get better, as other sensors, lane 
keeping gets better and other, frankly, technological 
innovations, but you will see something approaching a car that 
is self-driving in certain modes of operation possibly in the 
future all the way to an automated vehicle.
    But at this point NHTSA is not aware of any, you know, 
vehicle that is fully ready for a commercialized use in a full 
autonomous mode.
    Ms. Norton. Now, the American manufacturers, and I should 
ask our American manufacturers, fell behind when hybrid cars 
came on the road. Where are our car manufacturers relative to 
the other manufacturers who sell very well in the United States 
on autonomous vehicles or is this an American thing?
    Mr. Robinson. Actually, Congresswoman, I think across the 
board, regardless of where their home base is, whether it is 
German companies, Japanese companies or U.S.-based companies, 
everybody is looking at these issues that I know of and have 
their own test programs.
    One of the things that we all have talked about is the need 
for flexibility because we think the marketplace will help 
determine the best technologies for the money. Customers have a 
great way of telling us what they want.
    Ms. Norton. What do you mean by ``flexibility''? I am 
sorry.
    Mr. Robinson. Not to prescribe a specific approach to 
solving an issue, for instance, whether it is a crash 
mitigation system or automated braking system or anything else 
that we have talked about.
    I think it is a great thing to have standard expectations 
in terms of performance, but let the market decide who has 
created the best mousetrap, if you will, to solve that problem 
at the best cost, and so we are all about the marketplace, 
winning in the marketplace, letting customers decide.
    I think the way NHTSA has laid out its framework or its 
outline for the future, I think, it provides for adaptability. 
It provides for flexibility in achieving these goals, and I 
think that is wise.
    Ms. Norton. Mr. Strickland, do you agree with that 
approach? I mean, is that how you are approaching?
    Mr. Strickland. Absolutely, Congresswoman. NHTSA has to 
basically do its work on performance standards because we 
cannot anticipate the next great innovation. If you pick a 
design standard, which is ``you have to build this particular 
car or this particular engine this particular way,'' you are, 
frankly, stifling the ability for some future improvement that 
you cannot anticipate.
    As I said, in an earlier question about this, the one 
evolution in the work in automated driving is performance 
standards work well in terms of how well a car avoids a crash, 
how much fuel a car should use, but when you are talking about 
electronics, where you are basically dealing with hundreds of 
thousands, millions of lines of code, being able to take in 
thousands of variables a second for the car that is essentially 
making a decision, we are likely going to have to move to 
something like a process standard. What is the way the 
manufacturers tested and developed their system to be able to 
take into account all of these things that we expect for proper 
roadway safety?
    And that is going to be a slight difference from what the 
agency has done in the past, but we think it is, again, what 
Mr. Robinson alluded to, an even-handed, balanced way to not 
stifle innovation, but have certain guarantees that there is 
going to be safe performance of all these systems.
    Ms. Norton. Yes. Build the car, and then we will learn what 
we have to do to regulate it.
    Mr. Strickland. Exactly right.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Petri. Thank you, and thank you all for your testimony 
and those who worked to prepare it.
    I would ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing, and unanimous consent that the record will remain 
open for 15 days for additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    If no one has any further comments or questions, this 
hearing is adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
